                                              1    . NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                             11           OFFICE OF INVESTIGATIONS

                                             11   CLOSEOUT MEMORANDUM

Case Number: I01070016                   I'                                                         Page 1 of 1


                                         11
      In 2001, the National Science Foundation (NSF) received a letter stating that an employee                '
      submitted false travel jeimbursements at one of its facilities2funded by NSF.
                                         /I
      An audit identified fiaudulent claims submitted by the employee during the 2000-200 1 fiscal
                             II
      years. The employee no longer works for the university system.
                                         I
      In December 2001, a criminal information was filed. The information charged one count of
      theWernbezzlement fidm a program receiving federal funds in violation of 18 U.S.C. 8 666 (a)
      (1) (A).             I1

      In February 2002, the former employee entered a into a plea agreement and plead guilty to one
      count of theWembezzlement from a program receiving federal funds and paid restitution. [Press
                            'I
      Release attached]
                            1
      The subject has been debarred for a period of three years. [debarment letter attached]
                                     1



      Accordingly, this casd is closed.
                                    I!




      ' Ms. Mary Elizabeth Rhea, Former Assistant Director of Administration, Offshore Technology Research Center
        Texas Engineering ~ x ~ e r i m e nStation
                                            t      Offshore Technology Center
                               I1




                          Investigator                   Attorney               Supervisor                      AIGI

  Sign / date

                                                                                                 NSF OIG Form 2 (1 1/02)
                               I
                                  U. S. Department of Justice
                                    U. S.Attorney's Office
                                  Southern District o f Texas
                         Michael Shelby United States Attorney

     FOR IMMEDIATE RELEASE;

     August 23,2002

     Nancy G. Herrera
     Executive Assistant W nited States Attorney
     Phone: 7131567-9000 Fax: 7131718-3390
     or
     Kesha K. Handy
     Public Affairs Specialist
     Phone: 7131567-9335 Fax:. 7131718-3300
     E-Mail: ~s.ha,Handv@usdoJ.gov
                   TAMU RESEARCH PROJECT EMPLOYEE SENTENCED
                     DEFRAUDING FEDERALLY FUNDED PROGRAM

     CONTACT: Larry Eastepp: Assistant U. S, Attorney
     Phone:       7 731567-9720      .

           (HOUSTON) United States Attorney Michael Shelbyannounced that Mary Elizabeth
    Rhea, 44, formerly of the Bryan-College Station area, was sentenced today by United
    States District Court Judge Melinda Harmon to three years probation and 150 hours of
    community service far defrauding the Texas Engineering Experiment Station's Offshore
    Technology Research Center (a research project connected to Texas A and M University)
    of almost $20,000 between September 1999 and August 2000,

            On February 1, 2002, Rhea entered a plea of guilty to a federal charge that she
    received reimbursernentsfrom the Research Center based on the submission offraudulent
I   travel vouchers. The money she fraudulently received came from federal funding of the
    research project by a National Science Foundation research grant. As the time of her plea
I


    Rhea paid restitutionlin the exact amount of $19,871-63.

           The case was investigated by agents with the Bryan-College Station Resident
    Agency of the Federal Bureau of Investigation, and prosecuted by Assistant United States
    Attorney tarry Eastepp with the Public Corruption Section.
                                        1                                         I
                                       NATIONAL SCIENCE FOUNDATION
                                            4201 WILSON BOULEVARD
                                           ARLINGTON, VIRGINIA 22230




           OFFICE OF M E
          DEPUTY DIRECTOR


    CONFIDENTIAL - TO BE OPENED BY ADDRESSEE ONLY
I   CERTIFIED MAIL-RETURN RECEIPT REQUESTED
!
    Ms. Mary Elizabeth Rhea



    Re: Notice of Proposed Debarment

    Dear Ms. Rhea:

    This letter serves as formal notice that the National Science Foundation (NSF) is proposing to
    debar you fiom directly or indirectly obtaining the benefits of Federal grants for a period of three
    years from the date of this letter. A person who is debarred will be excluded during the period of
    debarment from Federal financial and non-financial assistance and benefits under non-
    procurement Federal programs and activities. See 45 CFR Sections 620.1 10 and 620.200. In
    addition, you will also be prohibited from receiving any Federal contracts or approved
    subcontracts under the Federal Acquisition Regulations (FAR) at 48 CFR Subpart 9.4 for the
    period of this debarment. 45 CFR Section 620.1 10(c). Debarment of an individual is effective
    throughout the executive braqch of the Federal Government. During the debarment period, you
    may not have supervisory responsibility, primary management, substantive control over, or
    critical influence on, a grant, contract, or cooperative agreement with any agency of the Executive
    Branch of the Federal Govement.

    Reasons for Debarment

    Your debarment is based upon a referral fiom our Office of Inspector General (OIG). The
    Foundation's record demonstrates that you committed irregularities seriously reflecting on the
    propriety of further Federal dovernment dealings with you and that there is cause for your
    debarment.

    The Foundation's current administrative record indicates that you were the Administrative
    Director of the Texas Engineering Experiment Station's Offshore Technology Research Center, a
    State of Texas government agency receiving Federal fhding from the IVational Science
    Foundation. You pled guilty to filing fraudulent travel reimbursements against a National
    Science Foundation cooperative agreement (EEC-87221512) over a period of several years.
Specifically:

1. On December 11, 2001, a criminal information was filed in the U.S. District Court for the
Southern District of Texas, Houston Division, U.S. v. Rhea (Case No. 01-CR-908-ALL). A copy
of the Information is enclosed and hereby incorporated by reference. The Information charged
you with one count of ~hefkmbezzlementfrom a Program Receiving Federal Funds in violation
of 18 United States Code section 666(a)(l)(A).

2. On February 1,2002, you entered into a plea agreement in which you pled guilty to the count
in the Information. You agreed to make restitution in the amount of $19,871.63. A copy of the
Plea Agreement, which wa's entered on February 5,2002, is attached and hereby incorporated by
reference.

Renulatorv Basis for Debarment

45 CFR Section 620.305 provides that debarment may be imposed for:

       (a) Conviction of or civil judgment for:

              (1) Commission of fraud or a criminal offense in connection with
       obtaining, attempting to obtain, or performing a public or private agreement or
       transaction;



               (3) Commission of embezzlement, theft, forgery, bribery, falsification or
       destruction of recdrds, making false statements, receiving stolen property, making
       false claims, or obstruction of justice; or

              (4) C~mrni~ssion  of any other offense indicating a lack of business integrity
       or business honest) that seriously and directly affects the present responsibility of
       a person.

Your conviction for Theft from a Program Receiving Federal Funds supports a cause for
debarment under 45 ~ ~ ~ I ' s e c t i620.305(a)(l),
                                       ons           (2), and (3). Your conviction reflects adversely
on your integrity, honesty, and present responsibility in relation to Federal financial and non-
financial assistance and benefits.

Debarment must be for a period commensurate with the seriousness of the cause. 45 CFR
Section 620.320(a). It should generally not exceed three years, but where circumstances warrant,
a longer period may be imposed. 45 CFR Section 620.320. The burden of proof is on the
government to establish facts which justify debarment by a preponderance of the evidence.
45 CFR Section 620.314ic). Where the proposed debarment is based upon a conviction, the
standard shall be deemed to have been met. 45 CFR Section 620.3 14(c).

Embezzling public funds is an extremely serious breach of the public trust. The record
demonstrates that you submitted false travel vouchers for numerous trips over a period of several
    years. Because of the seriousness of this offense, we are proposing debarment for a period of
    three years.

    Procedures govern in^ Proposed Debarment

    The provisions of 45 CFR Sections 620.300 through 620.325 govern debarment procedures and
    decisionmaking. Under our iegulations, you have 30 days after receipt of this notice to submit, in
    person, or in writing, or through a representative, information and argument in opposition to your
    suspension or debarment. 45 CFR Sections 620.313(a). Comments submitted within the 30-day            4



    period will receive full consiaeration and may lead to a revision of the recommended disposition.
    If we do not receive a response to this notice within the 30-day period, this debarment will
    become final.

    Any response should be addressed to me at the National Science Foundation, Office of General
I
    Counsel, 4201 Wilson Boulevard, Room 1265, Arlington, Virginia, 22230. For your
I
    information, we are attaching a copy of the Foundation's regulations on Non-procurement
    Debarment and FAR Subpart 9.4.

                                         Sincerely,



                                C/       Joseph Bordogna
                                         Deputy Director

    Attachments (4)
    Information
    Plea Agreement
    Nonprocurement Debarment Regulations
    FAR Regulations

    Cc: Travis B. Bryan, 111
